uoomh

Mppeai: i»-*+ooz

uou o

rneu: uz/zu/zuzu

rg: i 01 z

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-4862

UNTIED STATES OF AMERICA,
Plaintiff - Appellee,
v.

MOLLEE M. MCWHORTER,
Defendant - Appellant.

Appeal from the United States District Court for the Western District of Virginia, at
Harrisonburg. Elizabeth Kay Dillon, District Judge. (5:19-cr-00009-EKD-l)

Submitted: February 18,2020

Decided: February 20,2020

Before MOTZ, HARRIS, and QUATTLEB AUM, Circuit Judges.

Affirmed by unpublished per curiam opinion.

Mollee M. McWhorter, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

uo^ms

Mppeai: i»-«tooz

uoc: o

meu: u^/zu/zuzu

rg: ^ 01 ^

PER CURIAM:
Mollee M. McWhorter was convicted by a magistrate judge of possessing less than
two ounces of marijuana in the George Washington and Jefferson National Forest, in
violation of 36 C.F.R. § 261.58(t) (2019). The magistrate judge imposed a $10 fine and a
$10 special assessment. McWhorter appealed to the district court, arguing that she used
marijuana to treat her anxiety and advancing several policy arguments for the federal
legalization of marijuana. The district court concluded that the magistrate judge’s finding
that McWhorter violated 36 C.F.R. § 261.58(t) was not contrary to law or otherwise
erroneous and affirmed the judgment.
McWhorter now appeals the district court’s order affirming the judgment.

On

appeal, McWhorter continues to advocate for the federal legalization of marijuana and
requests that the conviction be expunged based on her belief that marijuana is an herbal
medicine that should be legal to use. On appeal, we confine our review to the issues raised
in the informal brief. See 4th Cir. R. 34(b). Because McWhorter’s informal brief neither
challenges the basis for the district court’s disposition nor the facts supporting her
conviction, she has forfeited appellate review of the court’s order. See Jackson v. Lightsey,
775 F.3d 170, 177 (4th Cir. 2014) (“The informal brief is an important document; under
Fourth Circuit rules, our review is limited to issues preserved in that brief.”). Accordingly,
we affirm McWhorter’s conviction. We dispense with oral argument because the facts and
legal contentions are adequately presented in the materials before this court and argument
- would not aid the decisional process.
AFFIRMED
2

».fr

CLERK'S OFFICE U.S. DIST. COURT
AT HARRISONBURG, VA
FILED

11/15/2019
JULIA C. DUDLEY, CLERK

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
HARRISONBURG DIVISION
UNITED STATES OF AMERICA

)
)
)
)
)

v.

MOLLEE M. MCWHORTER

BY: s/ J. Vasquez
DEPUTY CLERK

Criminal Action No. 5:19-cr-00009
By: Elizabeth K. Dillon
United States District Judge

MEMORANDUM OPINION AND ORDER
-

-

•

■.

---•..................... ,

/

-

.

.

.

;

";

„

.*

.

f

Defendant Mollee M. McWhorter was convicted on March 12, 2019, by a magistrate
judge of the petty offense of possessing, storing, or transporting any part of a tree or other
plant—-in this case marijuana—in violation of 36 C.F.R. § 261.58(f).1 McWhorter appeals her
conviction on the grounds that it is “unjust as [she] was a Maryland medical cannabis patient
before their state changed laws on out-of-state citizens accessing medicinal cannabis.” (Dkt. No.
1.) Pursuant to the briefing order entered October 10, 2019, McWhorter filed her pro se
memorandum of law on October 15, 2019. (Dkt. No. 3.) In accordance with Local Rule 59(b) of
this district, the government had twenty-one days from the date of filing of McWhorter’s
memorandum to file a responsive memorandum. The deadline has passed, and the government
did not file a response. For the reasons set forth below, the court will affirm the judgment
imposed on March 12, 2019.2

1 The regulation under which McWhorter was convicted prohibits “[possessing, storing, or transporting
any part of a tree or other plan, as specified in the order.” 36 C.F.R. § 261,58(t). As relevant here, Order Number
27-08-17, issued by the United States Department of Agriculture for the George Washington and Jefferson National
Forests, prohibits “[possessing, storing, or transporting cannabis plant/s or any controlled substance derived from
the manufacture of cannabis plant(s).” (United States v. McWhorter, No. 5:19-po-12, Dkt. No. 4-1.)
2 Local Rule 59(b) provides that once the deadlines for filing briefs pass, “[t]he matter is thereafter deemed
submitted for decision, provided that oral argument may be granted in the Court’s discretion.” Finding that
McWhorter has identified no reversible error in the magistrate judge’s decision, the court will dispense with oral
argument in this case.

Case 5:19-cr-00009-EKD Document 4 Filed 11/15/19 Page lot 4 Pageid#: 18

I. BACKGROUND
On December 17, 2018, United States Forest Service Officer King responded to a report
of two lost hikers in the George Washington and Jefferson National Forest in Page County,
Virginia. Officer King eventually met up with two hikers, one of whom was McWhorter.
Shortly thereafter, McWhorter notified Officer King that she was in possession of marijuana.
At the hearing before the magistrate judge, McWhorter explained that she uses marijuana
to help control her anxiety. Since she was born, she has relied on herbal medicine almost
exclusively. McWhorter reported that she previously accessed medical marijuana from
Maryland; however, Maryland amended its medical marijuana laws or regulations such that she
could no longer obtain medical marijuana as a resident of Virginia. Given that McWhorter
previously held a medical marijuana license and voluntarily disclosed her possession of
marijuana to Officer King, the magistrate judge reduced McWhorter’s fine to $10.00 with a
$10.00 special assessment and waived the processing fee.
II. DISCUSSION
A. Standard of Review
Federal Rule of Criminal Procedure 58 allows a defendant to “appeal a magistrate judge’s
judgment of conviction or sentence to a district judge within 14 days of its entry.” Fed. R. Crim.
P. 58(g)(2)(B). However, “[a] defendant who is convicted and sentenced by a magistrate judge
is not entitled to a trial de novo by a district court.” United States v. Bobadilla, No. 1:08CR31,
2008 WL 2372068, at *2 (W.D.N.C. June 6, 2008). Rather, “[t]he scope of the appeal is the
same as in an appeal to the court of appeals from a judgment entered by a district judge.” Fed.
R. Crim. P. 58(g)(D). “The District Court’s duty in connection with an appeal from a magistrate
judge is limited to examining the record to ascertain whether evidence was presented which

2
Case 5:19-cr-00009-EKD Document 4 Filed 11/15/19 Page 2 of 4 Pageid#: 19

fti’PEftPiXB

would support the magistrate’s conviction, and which shows the trial was free from errors of
law.” United States v. Lewis, No. 10-CR-10, 2010 WL 772849, at *1 (W.D. Va. Mar. 3, 2010)
(citing United States v. Williams, 220 F. Supp. 556 (N.D. Cal. 1963)).
B. Analysis
On appeal, McWhorter restates much of the argument she presented before the magistrate
judge. Namely, she notes that she has relied on herbal medicine for her entire life, including
using marijuana since the age of eighteen. She reports that she previously obtained medical
marijuana in Maryland until Maryland changed its laws regarding who may qualify as a medicalmarijuana patient. In effect, McWhorter argues that marijuana use should be legalized and has
pursued her case to this point “in an effort to state my case on why Cannabis should be legalized
for myself and millions of other people.” (Dkt. No. 3.)
As stated above, this court is tasked with reviewing the record to ensure the magistrate
judge’s conviction is supported by the evidence and is not contrary to law. McWhorter does not
contest the facts leading to her conviction or assign any errors of law to the magistrate judge’s
decision. Nor does she contend that her sentence is unreasonable or excessive. Rather, she
asserts a policy-based argument in favor of legalizing marijuana and argues that her sentence is
“unjust” because she was previously a medical-marijuana patient under Maryland law. She has
conceded, however, that she no longer holds a valid medical-marijuana license. Accordingly, the
court finds that the magistrate judge’s conclusion that McWhorter violated 36 C.F.R. § 261.58(t)
by transporting marijuana in the George Washington and Jefferson National Forest, and the fine
imposed of $10.00, are not contrary to law or otherwise erroneous.

3
Case 5:19'Cr-00009-EKD Document 4 Filed 11/15/19 Page 3 of 4 Pageid#: 20

ftt¥£rtP)X3

III. CONCLUSION
For the foregoing reasons, it is hereby ORDERED that the judgment and sentence of the
magistrate judge are AFFIRMED.
The clerk is directed to send a copy of this order to counsel for the government and to
McWhorter.
Entered: November 15, 2019.

Elizabeth K. Dillon
United States District Judge

ECF
DOCUMENT
I hereby attest and certify that this is a printed copy °f
a document that was electronically filed with the
United States District Court for the Western District
of Virginia
Date Red
Julia C Dudley, Clerk of Court

W:\trB

7 7r

'

4
Case 5:19-cr-00009-EKD Document 4 Filed 11/15/19 Page 4 of 4 Pageid#: 21

fteeeNplKF

fa

f

CLERK’S OFFICE U S. DIST. COURT
AT HARRISONBURG, VA
FILED

10/10/2019

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
HARRISONBURG DIVISION
UNITED STATES OF AMERICA
v.

)
)
)

)
MOLLEE M. MCWHORTER

)

JULIA C. DUDLEY, CLERK

BY: s/ J. Vasquez
DEPUTY CLERK

Criminal Action No. 5:19-cr-00009
By: Elizabeth K. Dillon
United States District Judge

BRIEFING ORDER
This matter is before the court on the appeal of case 5:19-po-00012, wherein McWhorter
was found guilty of the petty offense of possession of marijuana on March 12, 2019, in violation
of 36 C.F.R. § 261.58(t).
McWhorter filed a notice of appeal on March 13, 2019. (Dkt. No. 1.) This court has
adopted Local Rules. Pursuant to Western District of Virginia Criminal Rule 58 (Rule 59),
McWhorter, as appellant, was to file a statement of grounds for the appeal and a supporting
memorandum of law within fourteen (14) days after filing a notice of appeal. McWhorter noted
in her appeal that she “feel[s] this case verdict is unjust as [she] was a Maryland medical
cannabis patient before their state changed laws on out-of-state citizens accessing medicinal
cannabis.” 1 (Id) She did not, however, file a supporting memorandum.
The court hereby ORDERS that McWhorter shall have fourteen (14) days after service of
this order to file a supporting memorandum of law. Rule 59 sets forth the deadline for any
responsive memorandum by appellee and any reply by appellant McWhorter. McWhorter is

1 It is unclear whether this language in McWhorter’s notice of appeal was intended to satisfy the
requirement that she file a statement of grounds for appeal. If she intends to file any additional statement setting out
grounds for her appeal, she may do so by the deadline for her to file a supporting memorandum of law as ordered
herein.

WENfiX, b

advised that if she fails to file a supporting memorandum of law, her appeal may be dismissed.
If McWhorter wishes to withdraw her appeal, she may notify the court.
The clerk is directed to send a copy of this order to counsel for the government and to
McWhorter.
Entered: October 10, 2019.

/'d/'/fT"
Elizabeth K. Dillon
United States District Judge
ECF

of Virginia
Date Filed

TiUcTDudi^ai^^1

/ -

2

frfmicjxe

